September 28, 2000


GARY L. MCCURDY
VICE PRESIDENT, ALLEGHENY AREA OPERATIONS

SUBJECT:	 Audit Report – South Jersey Performance Cluster’s Process for
          Administering Continuation of Pay Leave Benefits
          (Report Number HC-AR-00-001)

This report presents the results of our self-initiated audit of the South Jersey
Performance Cluster’s Process for Administering Continuation of Pay Leave Benefits
(Project Number 00RA058HC002). This report is the first of seven reports we plan to
issue concerning the process for approving and tracking continuation of pay leave
benefits in the Allegheny Area.
The audit revealed opportunities for improving the process of administering continuation
of pay leave benefits and complying with Postal Service policies. We provided three
recommendations to improve the process. Management agreed with our finding and
recommendations and the actions taken or planned should correct the issues discussed
in this report. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Ms. Katherine K. Johnson, director, Health
Care Fraud, or me at (703) 248-2300.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment
cc: Yvonne D. Maguire
    Kelly Lewis Barlow
    Wayne L. Eggiman
    Mary F. Hinson
    Thomas F. Kelly
    Elwood A. Mosley
    Timothy F. O’Reilly
    Richard C. Overton
    Charles H. Thatcher, Jr.
    John R. Gunnels
South Jersey Performance Cluster’s Process for          HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                   TABLE OF CONTENTS

Executive Summary
                                          i

Part I 


Introduction 
                                              1

   Background                                               1

   Objective, Scope, and Methodology                        2

   Prior Audit Coverage                                     3


Part II 


Audit Results                                               4


   Continuation of Pay Leave Benefits                       4

   Recommendations                                          8
   Management’s Comments                                   8

   Evaluation of Management’s Comments                     10 


Appendix A. Statistical Sampling Methodology Overview      11 


Appendix B. Prior Audit Coverage                           12 


Appendix C. Continuation of Pay Policy                     14 


Appendix D. Management’s Comments                          16 

South Jersey Performance Cluster’s Process for                                    HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                  EXECUTIVE SUMMARY
 Introduction                  We completed a self-initiated audit to determine whether the
                               Allegheny Area’s process for approving and tracking the use
                               of continuation of pay leave benefits for injured employees
                               complied with the Department of Labor, Office of Workers’
                               Compensation Programs and United States Postal Service
                               (Postal Service) policies. This report on the Allegheny
                               Area’s South Jersey Performance Cluster is the first of
                               seven reports we plan to issue concerning the process for
                               approving and tracking continuation of pay leave benefits in
                               the Allegheny Area.

 Results in Brief              The audit revealed the South Jersey Performance Cluster’s
                               process for monitoring continuation of pay leave benefits for
                               injured employees needs improvement. Specifically,
                               supervisors and injury compensation control office staff did
                               not always process and monitor continuation of pay leave
                               benefits properly. Consequently, management controls
                               over the processing of continuation of pay leave benefits
                               were ineffective to prevent 23 unnecessary pay adjustments
                               needed to correct employees’ applicable sick, annual, or
                               other leave balances. The cost to process those pay
                               adjustments was estimated at $1,725. In addition, we
                               identified continuation of pay overpayments totaling about
                               $822.

 Summary of                    To correct the deficiencies associated with continuation of
 Recommendations               pay leave benefits, we recommended that Postal Service
                               managers reissue a district-wide policy requiring
                               supervisors to directly request authorization of continuation
                               of pay before any leave entries are made in the payroll
                               system. In addition, Postal Service managers should
                               establish management controls for monitoring continuation
                               of pay usage and implement a new management control
                               procedure for reconciling continuation of pay time and
                               attendance reporting.

 Summary of                    Management agreed with our recommendations and stated
 Management’s                  that corrective actions will be initiated and implemented at
 Comments                      the beginning of fiscal year 2001. Postal Service
                               management in the South Jersey Performance Cluster will
                               reissue a district-wide policy requiring authorization from
                               injury compensation control office personnel before
                               continuation of pay hours are input into the payroll system.


                                                    i
South Jersey Performance Cluster’s Process for                                     HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                               Refresher training will be provided to all supervisors on the
                               new continuation of pay policy and the training will
                               encompass the deficiencies identified in the audit report.
                               Detailed instructions regarding the proper completion of
                               Form 3971, Request for Notification of Absence, for all
                               injured employees will be provided to each functional
                               manager. A process to document the reconciliation of
                               Workers’ Compensation-Injury on Duty report each
                               accounting period will be established and a new
                               management control procedure will be performed to require
                               front-end reconciliation before continuation of pay hours are
                               finalized in the payroll system.

                               Management’s comments, in their entirety, are included in
                               Appendix D.

 Overall Evaluation of         Management’s comments were responsive to our
 Management’s                  recommendations and we believe the actions taken or
 Comments                      planned should correct the issues identified in this report.




                                                    ii
South Jersey Performance Cluster’s Process for                                                      HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                            INTRODUCTION
    Background 	                  The Department of Labor, Office of Workers’ Compensation
                                  Programs has sole responsibility for administering the
                                  Federal Employees' Compensation Act. The Code of
                                  Federal Regulations, Title 20, Part 10, April 1, 1999,
                                  establishes the rules for claiming benefits under the Federal
                                  Employees' Compensation Act. Specifically, Section 10.200
                                  of the Code of Federal Regulations states, in part, that the
                                  employer must continue an employee’s regular pay for up to
                                  a maximum of 45 calendar days of wage loss due to
                                  disability and/or medical treatment after a traumatic injury.
                                  This provision is called continuation of pay (COP). COP is
                                  considered regular income and unlike workers’
                                  compensation wage loss benefits, COP is subject to income
                                  taxes and other payroll deductions applicable to regular
                                  income. The intent of the COP provision is to eliminate
                                  interruption of the employee’s income during the period
                                  immediately after a job-related traumatic injury, while the
                                  Office of Workers’ Compensation Programs adjudicates1 the
                                  employee’s injury claim. After entitlement to COP leave
                                  benefits expires, the employee may apply for workers’
                                  compensation wage loss benefits or use personal leave.

                                  The United States Postal Service (Postal Service) is
                                  geographically segmented into ten decentralized areas
                                  including the Allegheny Area and Metro Operations. During
                                  fiscal years (FY) 1998 and 1999, postal-wide payments for
                                  COP leave benefits averaged $22.5 million annually for
                                  approximately 23,000 employees. The Allegheny Area
                                  averaged $2.2 million in annual COP leave benefit
                                  payments for approximately 2,400 employees over the
                                  same two-year time span.

                                  The Allegheny Area is geographically divided into ten
                                  performance clusters including the South Jersey
                                  Performance Cluster. The Postal Service’s Injury
                                  Compensation Control Office (the Control Office) personnel
                                  manage all injury claims for each of the performance
                                  clusters. In addition, Control Office personnel are
                                  responsible for authorizing employee-requested COP leave
                                  benefits.

1
 The process whereby Office of Worker’s Compensation Programs considers all information submitted by the
employee, employer, and from its own investigation to reach a decision regarding entitlement to Federal Employees’
Compensation Act leave benefits.



                                                        1
South Jersey Performance Cluster’s Process for                                                      HC-AR-00-001
 Administering Continuation of Pay Leave Benefits




    Objective, Scope, and          Our audit objective was to determine whether the Allegheny
    Methodology                    Area, South Jersey Performance Cluster's process for
                                   approving and tracking the use of COP was in compliance
                                   with the Department of Labor, Office of Workers’
                                   Compensation Programs and Postal Service policies. In
                                   addition, we reviewed the management controls applicable
                                   to COP leave benefits.

                                   To accomplish our objectives we reviewed Postal Service
                                   policies and procedures associated with COP leave
                                   benefits. We interviewed representatives from the Postal
                                   Service Headquarters, Health and Resource Management
                                   office and South Jersey Performance Cluster Control Office.
                                   In addition, we contacted representatives from the
                                   Department of Labor, Office of Workers' Compensation
                                   Programs to discuss certain aspects of the COP guidance.

                                   This audit was limited to FY 2000 COP injury claims
                                   administered by the South Jersey Performance Cluster for
                                   pay periods 20 through 26 in calendar year 1999 and pay
                                   periods 1 through 7 in calendar year 2000. The South
                                   Jersey Performance Cluster was randomly selected as one
                                   of several performance clusters for an Allegheny Area
                                   projection. We identified 103 COP injury claims in the
                                   South Jersey Performance Cluster’s payroll sample frame
                                   for the audited period. We randomly selected 52 out of the
                                   103 COP injury claims for review.

                                   The performance cluster sample size was calculated based
                                   on an area-wide design and projection. Therefore, the
                                   sample size in any one of the performance clusters is not
                                   adequate to provide a specific performance cluster dollar
                                   estimate with tight enough precision to be useful to a
                                   performance cluster. Consequently, we will not project audit
                                   results by individual performance clusters; instead, at this
                                   time we will only report actual unprojected audit results.2

                                   We relied extensively on computer-processed payroll data
                                   contained in the Postal Service Payroll Pay Data and
                                   Employees Master Files. We also relied on prior audit work
                                   performed by the Postal Service Office of Inspector

2
 Appendix A contains an overview description of our statistical sampling design methodology for the area-wide
projection.



                                                         2
South Jersey Performance Cluster’s Process for                                   HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                               General (OIG) on the FY 1999 Postal Service financial
                               statement audit to assess the payroll function’s general and
                               application controls. In addition, we traced statistically-
                               selected data from the Payroll Pay Data and Employee
                               Master Files to the source documentation. Based on prior
                               audit results and alternative testing procedures performed
                               during the audit, we assessed the reliability of these data,
                               including relevant general and application controls, and
                               found them adequate. As a result of tests and
                               assessments, we consider the computer-processed data
                               reliable to satisfy the audit objectives.

                               We conducted the audit from April 2000 through
                               September 2000 in accordance with generally accepted
                               government auditing standards and included such tests of
                               management controls as were considered necessary under
                               the circumstances. We also discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.

 Prior Audit Coverage 	 Since February 1996, the President’s Council on Integrity
                        and Efficiency issued one consolidated audit report on
                        workers’ compensation to include COP issues. In addition,
                        the Postal Service OIG, issued two audit reports related to
                        the Eagan, Minnesota, Information Systems and Accounting
                        Service Center for the fiscal year ended September 30,
                        1999. The Eagan, Minnesota, Information Systems and
                        Accounting Service Center has four departments. Our prior
                        audit focused on two out of the four departments. Of these,
                        the Integrated Business Systems Solutions Center
                        concentrates on support and development for payroll and
                        other clients. In addition, the accounting service center is
                        responsible for a variety of accounting activities to include
                        the payroll function. See Appendix B for prior audit report
                        details.




                                                    3
South Jersey Performance Cluster’s Process for                                                         HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                             AUDIT RESULTS
Continuation of Pay              The South Jersey Performance Cluster supervisors and
Leave Benefits                   Control Office staff did not always process and monitor COP
                                 leave benefits properly. Specifically, we found that 20 out of
                                 the 52 COP injury claims reviewed contained COP leave
                                 benefit errors. The listing of COP injury claims recorded in
                                 error is provided in the table. The incorrect processing of
                                 COP leave benefits occurred because supervisors did not
                                 always follow established procedures for authorizing and
                                 documenting COP leave benefits. In addition, the Control
                                 Office staff did not effectively monitor COP usage.
                                 Consequently, management controls over the processing of
                                 COP leave benefits were ineffective to prevent 23
                                 unnecessary pay adjustments needed to correct employees’
                                 applicable sick, annual, or other leave balances. The cost
                                 to process those pay adjustments was estimated at $1,725.3
                                 In addition, we identified COP overpayments totaling
                                 approximately $822.4
                                              Continuation of Pay Leave Benefits Processed In Error
                                               South Jersey Performance Cluster Pay Adjustments

                                  Injury Claims       Record ID          Number of Pay          Cost at $75 per
                                   With Errors         Number             Adjustments            Adjustment

                                         1                  3                  1                      $75.00
                                         2                  5                  1                       75.00
                                         3                  6                  1                       75.00
                                         4                  9                  1                       75.00
                                         5                 10                  1                       75.00
                                         6                 18                  2                      150.00
                                         7                 19                  1                       75.00
                                         8                 24                  1                       75.00
                                         9                 42                  1                       75.00
                                        10                 47                  1                       75.00
                                        11                 53                  1                       75.00
                                        12                 57                  1                       75.00
                                        13                 65                  2                      150.00
                                        14                 76                  1                       75.00
                                        15                 77                  2                      150.00
                                        16                 79                  1                       75.00
                                        17                 83                  1                       75.00
                                        18                 93                  1                       75.00
                                        19                 94                  1                       75.00
                                        20                 98                  1                       75.00
                                                        Totals                 23               $1,725.00


3
  The Postal Service estimates each pay adjustment costs $75 on average and in some extreme cases, pay
adjustments could cost as much as $175 as measured by the time expended by responsible Postal Service
employees. For audit reporting purposes, we used the lower estimate of $75 per pay adjustment.
4
  COP overpayments result when COP hours are paid in error and the employee does not have any available sick or
annual leave to cover the absence mistakenly recorded as COP hours. COP overpayments also result when COP
hours are paid in error while the employee is simultaneously receiving wage compensation payments from the Office
of Workers’ Compensation Programs. Consequently, recovery procedures must be executed to collect overpaid COP
hours from the employee.



                                                       4
South Jersey Performance Cluster’s Process for                                         HC-AR-00-001
 Administering Continuation of Pay Leave Benefits



Authorizing                        Following established procedures for authorizing COP leave
Continuation of Pay                benefits are essential in preventing unauthorized COP leave
Leave Benefits                     benefits and unnecessary pay adjustments. On
                                   December 19, 1997, the manager, Human Resources,
                                   South Jersey Performance Cluster, issued a memorandum5
                                   revising the authorization process for COP leave benefits.
                                   The memorandum stated the revised process would
                                   facilitate better management of COP hours and reduce the
                                   number of unnecessary pay adjustments.

                                   The revised COP authorization process required
                                   supervisors to advise the Control Office staff of an
                                   employee’s request for COP leave benefits via e-mail or
                                   telephone. Subsequently, the Control Office staff would
                                   authorize COP via e-mail with copies provided to the
                                   supervisor, Finance department, timekeeping data site, and
                                   manager of the Control Office. Afterwards, the supervisor
                                   would submit the PS Form 3971, Request for or Notification
                                   of Absence, to the timekeeping data site, along with a copy
                                   of the Control Office staff’s authorizing e-mail. Finally, the
                                   timekeeping data site would only input COP hours if the
                                   employee’s request included the authorizing e-mail from the
                                   Control Office staff.

                                   Supervisors did not always follow the revised authorization
                                   process for authorizing COP leave benefits implemented in
                                   December 1997. Specifically, supervisors did not receive
                                   proper authorization from the Control Office staff before
                                   approving employee COP leave benefits for 12 out of the 20
                                   injury claims we identified with COP errors. Furthermore, 4
                                   out of the 12 injury claims represented uninjured employees
                                   who received unauthorized COP leave benefits instead of
                                   the appropriate annual, sick, or other leave benefits. The
                                   supervisors’ failure to request and receive proper
                                   authorization from the Control Office staff for COP leave
                                   benefits led to 13 unnecessary pay adjustments and COP
                                   overpayments totaling approximately $822.

                                   When uninjured employees receive unauthorized COP
                                   leave benefits, the Postal Service is essentially allowing
                                   these employees an approved absence from work unrelated
                                   to an on-the-job injury. Moreover, the uninjured employees’

5
    See Appendix C for the full text of the December 19, 1997, memorandum.



                                                          5
South Jersey Performance Cluster’s Process for                                  HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                              applicable sick or annual leave balances are not reduced
                              and remain overstated.

Documenting Requests Proper timekeeping and accounting procedures are
for Continuation of Pay essential for effective management and administration of
Leave Benefits          the injury compensation program. Postal Service
                        timekeeping and accounting guidelines provided special
                        requirements for COP. For instance, a supervisor must
                        ensure a Form 3971 is completed promptly after being
                        advised of an employee request for COP leave benefits.
                        When a traumatic injury occurs and employees are unable
                        to initiate the Form 3971 to request COP leave benefits,
                        supervisors are expected to perform this function. The
                        senior installation official is required to retain Forms 3971
                        for two years from the date the leave is taken or
                        disapproved. Contrary to this guidance, supervisors did not
                        always follow established procedures for documenting
                        requests for COP leave benefits. Our review disclosed that
                        Forms 3971 for 26 out of the 52 injury claims were either
                        improperly prepared or did not exist. We were unable to
                        reconcile requested COP leave benefits with paid COP
                        hours due to improperly completed or missing Forms 3971.

                              Although Forms 3971 were improperly prepared or missing,
                              we used other injury claim file documentation to determine
                              appropriate COP leave benefits. Employees must complete
                              a Form 3971 to document requested COP leave benefits,
                              which are not automatically provided to injured employees.
                              Therefore, improperly prepared or missing Forms 3971
                              made it difficult to determine whether employees initially
                              requested any COP leave benefits. Consequently, without
                              an adequate audit trail, we are not reasonably assured that
                              all COP hours recorded in the payroll system resulted from
                              employee requests for COP leave benefits.

Monitoring                    Monitoring COP usage includes actively reviewing injury
Continuation of Pay           claim files to ensure appropriate COP leave benefits are
Usage                         provided to employees. Postal Service Handbook, EL-505,
                              Injury Compensation, December 1995, Chapter 13,
                              “Timekeeping and Accounting,” provides guidance for
                              monitoring COP. Chapter 13, Section 13.1, “Tracking Time
                              for COP" stated the Control Office staff must monitor COP
                              hours and days to ensure employees do not receive COP
                              leave benefits for more than a 45-calendar day period for
                              any one injury associated with the tracking of COP leave



                                                    6
South Jersey Performance Cluster’s Process for                                                        HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                  benefits. In addition, the guidance requires the Control
                                  Office staff to actively manage injury claims to ensure
                                  employees receive the COP leave benefits they are entitled.

                                  Our review disclosed situations where the Control Office
                                  staff did not effectively monitor COP usage during the injury
                                  claim’s COP eligibility timeframe. We identified 8 properly
                                  authorized COP injury claims, out of 20 with COP errors that
                                  the Control Office staff did not adequately monitor. In
                                  addition to 13 pay adjustments resulting from supervisors’
                                  improperly authorizing COP hours, the Control Office staff
                                  failure to properly monitor COP hours resulted in ten
                                  additional pay adjustments.

                                  Section 13.17, “Recovering Excessive COP Hours,” states
                                  the Control Office staff should use the “Workers’
                                  Compensation–Injury on Duty,” report to review COP data.
                                  The report is generated each accounting period and is used
                                  to reconcile COP leave benefits after those leave benefits
                                  have been reported and paid. We found the Control Office
                                  staff did not reconcile the Workers' Compensation–Injury on
                                  Duty report with COP injury claims as required by Postal
                                  Service Handbook guidance. Had the Control Office staff
                                  used the existing report to reconcile COP hours, the 12
                                  improperly authorized injury claims previously discussed
                                  would have been identified for correction prior to our audit.

                                  The existing report is a back-end monitoring control and, if
                                  used as intended, can readily identify inappropriately
                                  authorized COP leave benefits. However, the existing
                                  report was not designed to determine whether employees
                                  were initially entitled to COP leave benefits. Therefore, a
                                  front-end reconciliation control is needed to assist the
                                  Control Office staff in weekly monitoring of COP hours.

                                  We determined the Postal Service already has a front-end
                                  reconciliation capability within the electronic time clock
                                  system.6 The electronic time clock system can generate a
                                  time and attendance exception report7 (ETC-245P1) to
                                  identify COP and other hourly leave categories. In our

6
  The electronic time clock system is used to report time and attendance for a portion of Postal Service employees in
the South Jersey Performance Cluster. However, the electronic time clock system does not capture time and
attendance for rural carriers.
7
  An electronic time clock exception report should be requested no later than Friday of each week. The review and
validation of COP time reporting should be completed before the COP hours are finalized in the payroll system.



                                                          7
South Jersey Performance Cluster’s Process for                                                       HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                    opinion, the use of this front-end reconciliation capability, if
                                    implemented, could reasonably reduce the recording of
                                    inappropriate COP hours, thereby avoiding unnecessary
                                    payroll adjustments.

Recommendation                      We recommend the vice president, Allegheny Area, prevent
                                    the improper processing of continuation of pay leave
                                    benefits within the South Jersey Performance Cluster, in
                                    part by directing district and plant managers to:

                                    1.	 Reissue a district-wide policy requiring every supervisor
                                        to request authorization of continuation of pay hours
                                        from the South Jersey Performance Cluster’s Injury
                                        Compensation Control Office staff before any
                                        continuation of pay hours are inputted into the payroll
                                        system. Additionally, the district-wide policy should
                                        include:

                                               a)	 Instructions detailing supervisory
                                                   responsibilities for ensuring the proper
                                                   completion of continuation of pay leave
                                                   requests.8

                                               b)	 New management control procedures requiring
                                                   proper processing of all continuation of pay
                                                   leave requests to the finance and timekeeping
                                                   elements and retention of supporting
                                                   documentation in employee injury claim files.

Management’s                        Management agreed with the recommendation and a
Comments                            district-wide policy will be reissued requiring supervisors to
                                    request authorization from injury compensation control
                                    office personnel before any continuation of pay hours are
                                    input into the payroll system. Refresher training will be
                                    provided for all supervisors on the new continuation of pay
                                    policy and the training will encompass the deficiencies
                                    identified in the audit report. Detailed instructions regarding
                                    the proper completion of Form 3971, Request for
                                    Notification of Absence, for all injured employees will be
                                    provided to each functional manager. In addition, Postal
                                    managers will be required to submit the completed leave
                                    requests to the appropriate finance and timekeeping
                                    departments and to

8
    Employee requests for leave hours are reported on PS Form 3971 Request for or Notification of Absence.



                                                           8
South Jersey Performance Cluster’s Process for                                    HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                              send a copy of the leave requests to personnel in the injury
                              compensation control office for retention in the employee’s
                              injury claim file. Post Office Operations/Plant Managers will
                              be notified of any deficiencies regarding the leave request
                              procedures and appropriate corrective actions will be taken.

Recommendation                2.	 Direct the acting manager, Human Resources, to
                                  require personnel in the Injury Compensation Control
                                  Office to execute frequent monitoring of continuation of
                                  pay usage. Specifically, a process should be
                                  established to document the reconciliation of the
                                  Workers’ Compensation–Injury on Duty report each
                                  accounting period and ensure appropriate corrective
                                  actions are executed.

Management’s                  Management agreed with our recommendation. The
Comments                      manager, Injury Compensation Control Office will be
                              required to daily monitor and reconcile the Employee Activity
                              Report for any erroneous continuation of pay hours and take
                              appropriate action. In addition, a process will be established
                              to document the reconciliation of the Workers’
                              Compensation-Injury on Duty report each accounting period
                              and appropriate corrective actions will be executed.

Recommendation                3.	 Direct the acting manager, Human Resources, to
                                  implement a new management control procedure to
                                  perform a front-end reconciliation of continuation of pay
                                  hours. The management control should require Injury
                                  Compensation Control Office personnel to perform a
                                  weekly review and validation of continuation of pay
                                  hours before time accounting is finalized in the payroll
                                  system.

Management’s                  Management agreed with our recommendation and
Comments                      personnel in the injury compensation control office will
                              perform a weekly review and validation of continuation of
                              pay hours before the leave is finalized in the payroll system.
                              Any pay adjustments resulting from the review will be
                              processed by the injury compensation control office staff to
                              ensure recovery of continuation of pay and revenue
                              protection.




                                                    9
South Jersey Performance Cluster’s Process for                                  HC-AR-00-001
 Administering Continuation of Pay Leave Benefits




Evaluation of                 Management’s comments were responsive to our finding
Management’s                  and recommendations and we believe the actions taken and
Comments                      planned should correct the issues identified in this report.




                                                    10
South Jersey Performance Cluster’s Process for                                HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                          APPENDIX A
           STATISTICAL SAMPLING METHODOLOGY OVERVIEW
This appendix summarizes the area-wide sample design and indicates where the South
Jersey Performance Cluster fits into that design. We designed a stratified sampling
procedure for the Allegheny Area, including the area Control Office and its ten
performance clusters. However, we determined the number of COP injury claims
identified for the Allegheny Area’s Control Office in FY 2000 was insignificant.
Therefore, we excluded the Allegheny Area’s Control Office from the sample selection
process used to determine potential audit locations. The first stratum consisted of the
two performance clusters with the smallest number of COP injury claims. We took a
census of these two clusters and reviewed all of their injury claims. The second stratum
consisted of the other eight performance clusters; we randomly selected four out of the
eight performance clusters for audit. Because of the larger number of COP injury
claims in the four selected performance clusters, we randomly selected samples of COP
injury claims from within those clusters. The South Jersey Performance Cluster was
randomly selected as one of the four second-stratum locations to be reviewed.

The sample size in any one of the performance clusters is not designed to provide a
specific performance cluster dollar estimate with tight enough precision to be useful to a
performance cluster. Consequently, we will not project audit results by individual
performance clusters; instead, at this time we will only report actual unprojected audit
results. After all statistically-selected locations have been audited, we will perform a
weighted projection of the overall COP audit results. We will relate the area-wide
projection results in a consolidated report for the Allegheny Area.




                                                    11
South Jersey Performance Cluster’s Process for                                 HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                                          APPENDIX B
                                PRIOR AUDIT COVERAGE
The Postal Service, Office of Inspector General issued an audit report number
FR-AR-00-006, Fiscal Year 1999 Postal Service Financial Statement Audit – Eagan
Information Service Center, February 25, 2000. The audit report detailed the results of
an audit on the financial activities and accounting records at the Eagan, Minnesota
Information Systems and Accounting Service Center (formerly the Minneapolis
Information Systems and Accounting Service Center) for the fiscal year ended
September 30, 1999. The audit was conducted in support of the independent public
accounting firm’s overall Postal Service financial statement audit. The objectives of the
audit were to determine whether:

        1. Financial accounting policies and procedures provide for an adequate internal
           control structure and are in compliance with generally accepted accounting
           principles.

        2. General ledger account balances for assets, liabilities, equity, income,
           expenses, and commitments of the Postal Service are fairly stated in the
           national consolidated trial balance in accordance with generally accepted
           accounting principles.

        3. General ledger account balances conform to the general classification of
           accounts of the Postal Service on a basis consistent with that of the previous
           year.

The audit disclosed that management’s policies, accounting procedures, and internal
controls conformed with generally accepted accounting principles. The audit report did
identify two internal control weaknesses concerning the accuracy of back pay awards
and terminal leave payments. As part of the review, they reviewed the internal controls,
tested transactions, and verified account balances. The audit was conducted from
November 1998 through February 2000 in accordance with generally accepted
government auditing standards and included such tests of internal controls, as were
considered necessary under the circumstances.

The Postal Service, Office of Inspector General also issued an audit report number
FR-AR-99-009, Fiscal Year 1999 Information System Controls, Minneapolis Information
Service Center, September 29, 1999. The audit report detailed the results of an audit
on the information system controls at the Minneapolis Information Service Center. The
audit was performed as part of the FY 1999 financial statement audit. The objective of
the audit was to evaluate the adequacy of general controls over information systems at
the Minneapolis Information Service Center. The audit concluded that general controls
over software and data security at the Minneapolis Information Service Center (now
referred to as the Eagan Information Service Center) were generally adequate. The
audit report did identify issues requiring corrective actions regarding mainframe security,


                                                    12
South Jersey Performance Cluster’s Process for                                HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


application change control, local area network security, and UNIX security. This audit
was conducted from December 1998 to August 1999 in accordance with generally
accepted government auditing standards and included tests of internal controls as were
considered necessary.

The President's Council on Integrity and Efficiency, Audit Committee issued a
consolidated audit report number 02-96-223-04-431, Consolidated Report on the Audit
of Employing Agency Workers’ Compensation Programs, February 16, 1996, on
workers’ compensation. The Department of Labor, Office of Inspector General led this
audit of 13 Inspector General agencies. The audit was designed to evaluate the
effectiveness and efficiency of employing agency workers' compensation programs and
the audit report summarizes the results of those 13 audits. Specifically, the audit report
provided an observation on continuation of pay leave benefits.

The Department of Transportation, Office of Inspector General was the only agency
who reported on continuation of pay leave benefits. The Department of Transportation,
Office of Inspector General reported 26 percent of the claims reviewed received
continuation of pay although:

       •	 The Office of Workers’ Compensation Programs denied compensation claims.
       •	 The time for eligible use had expired.
       •	 No claim had been submitted to the Office of Workers’ Compensation
          Programs.

The Department of Transportation, Office of Inspector General recommended
employees' leave should be charged retroactively. Each Office of Inspector General
was responsible for follow-up action on specific recommendations made to employing
agency officials. Overall, employing agency officials agreed that improvements were
needed in the workers' compensation program.




                                                    13
South Jersey Performance Cluster’s Process for           HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                APPENDIX C. CONTINUATION OF PAY POLICY




                                                    14
South Jersey Performance Cluster’s Process for           HC-AR-00-001
 Administering Continuation of Pay Leave Benefits




                                                    15
South Jersey Performance Cluster’s Process for           HC-AR-00-001
 Administering Continuation of Pay Leave Benefits


                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                    16
South Jersey Performance Cluster’s Process for           HC-AR-00-001
 Administering Continuation of Pay Leave Benefits




                                                    17
